               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-02638-01




    Combined Assessment Program 

            Review of the 

          Chalmers P. Wylie 

      VA Ambulatory Care Center 

           Columbus, Ohio 





October 28, 2013

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                       CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Chalmers P. Wylie VA Ambulatory Care Center
                 FY             fiscal year
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                            CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 5

  Medication Management – CS Inspections ............................................................. 7

  Suicide Prevention Safety Plans ............................................................................. 9

  Moderate Sedation.................................................................................................. 10

  Management of Workplace Violence ...................................................................... 11

  Long-Term Home Oxygen Therapy ........................................................................ 12


Appendixes
  A. Facility Profile ....................................................................................................      13

  B. VHA Patient Satisfaction Survey .......................................................................                    14

  C. VISN Director Comments ..................................................................................                  15

  D. Facility Director Comments ...............................................................................                 16

  E. OIG Contact and Staff Acknowledgments .........................................................                            19

  F. Report Distribution .............................................................................................          20

  G. Endnotes ...........................................................................................................       21





VA OIG Office of Healthcare Inspections
                      CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
August 12, 2013.

Review Results: The review covered seven activities.                           We    made     no
recommendations in the following five activities:

   Quality Management

   Suicide Prevention Safety Plans

   Moderate Sedation

   Management of Workplace Violence

   Long-Term Home Oxygen Therapy

The facility’s reported accomplishments were improved telehealth services and a robust
voluntary service program.

Recommendations: We made recommendations in the following two activities:
Environment of Care: Secure sterile supply storage and soiled utility areas at all times.

Medication Management – Controlled Substances Inspections: Develop instructions for
inspections of automated dispensing machines. Include problematic trends and
potential areas for improvement in quarterly trend reports. Ensure inspectors receive
annual updates and/or refresher training. Require inspectors to consistently verify the
number of prescription pads.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 15–18, for the full
text of the Directors’ comments.) We consider recommendations 1, 2, 4, and 5 closed.
We will follow up on the planned actions for the open recommendation until it is
completed.



                                                    JOHN D. DAIGH, JR., M.D. 

                                                   Assistant Inspector General for 

                                                       Healthcare Inspections 



VA OIG Office of Healthcare Inspections                                                         i
                      CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Suicide Prevention Safety Plans

   	   Moderate Sedation

   	   Management of Workplace Violence

   	   Long-Term Home Oxygen Therapy

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
August 16, 2013, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the



VA OIG Office of Healthcare Inspections                                                        1
                      CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus,
Ohio, Report No. 11-01101-196, June 16, 2011).

During this review, we presented crime awareness briefings for 158 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
130 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Telehealth Program
The telehealth program increased access and care for rural veterans through expansion
in the facility’s community based outpatient clinics during FY 2013. The expanded
programs include tele-nutrition, TeleMOVE! (weight management program), and
telehealth promotion and disease prevention. Veterans living in rural areas benefit from
having these programs closer to their homes because they reduce the need for
long-distance travel to access many health care and specialty services.

Voluntary Service Program
The facility’s Voluntary Service Program serves as a broad spectrum networking system
that fosters community partnerships, influences stakeholder perceptions and behaviors,
and shapes facility image. In FY 2012, the volunteer program had more than
343 regularly scheduled volunteers who contributed roughly 653,150 hours of service.
In addition, more than $239,250 in monetary and in-kind contributions and activity,
equipment, and comfort items were received through the donation program. In
FY 2013, Voluntary Service hosted a sold-out “Valentines for Veterans” concert for the
entire community featuring the legendary group The Chi-Lites.




VA OIG Office of Healthcare Inspections                                                        2
                               CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

 NC                    Areas Reviewed                                       Findings
        There was a senior-level committee/group
        responsible for QM/performance
        improvement, and it included the required
        members.
 NA     There was evidence that Inpatient Evaluation
        Center data was discussed by senior
        managers.
        Corrective actions from the protected peer
        review process were reported to the Peer
        Review Committee.
        Focused Professional Practice Evaluations
        for newly hired licensed independent
        practitioners complied with selected
        requirements.
 NA     Local policy for the use of observation beds
        complied with selected requirements.
 NA     Data regarding appropriateness of
        observation bed use was gathered, and
        conversions to acute admissions were less
        than 30 percent, or the facility had
        reassessed observation criteria and proper
        utilization.
 NA     Staff performed continuing stay reviews on at
        least 75 percent of patients in acute beds.
 NA     Appropriate processes were in place to
        prevent incidents of surgical items being
        retained in a patient following surgery.
        The cardiopulmonary resuscitation review
        policy and processes complied with
        requirements for reviews of episodes of care
        where resuscitation was attempted.
        There was an EHR quality review committee,
        and the review process complied with
        selected requirements.



VA OIG Office of Healthcare Inspections                                                                 3
                               CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


 NC             Areas Reviewed (continued)                                  Findings
        The EHR copy and paste function was
        monitored.
        Appropriate quality control processes were in
        place for non-VA care documents, and the
        documents were scanned into EHRs.
        Use and review of blood/transfusions
        complied with selected requirements.
 NA     CLC minimum data set forms were
        transmitted to the data center with the
        required frequency.
        Overall, if significant issues were identified,
        actions were taken and evaluated for
        effectiveness.
        There was evidence at the senior leadership
        level that QM, patient safety, and systems
        redesign were integrated.
        Overall, there was evidence that senior
        managers were involved in performance
        improvement over the past 12 months.
        Overall, the facility had a comprehensive,
        effective QM/performance improvement
        program over the past 12 months.
        The facility complied with any additional
        elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 4
                               CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the dental clinic and SPS were met.2

We inspected the surgical pre-operative and post-anesthesia care units; the primary care,
gastroenterology, vascular, women’s health, prosthetics, urgent care, and dental clinics; and
SPS. Additionally, we reviewed relevant documents, conversed with key employees and
managers, and reviewed 16 employee training and competency files (6 operating room and
10 SPS). The table below shows the areas reviewed for this topic. The area marked as NC
needed improvement. Any items that did not apply to this facility are marked NA.

 NC           Areas Reviewed for General EOC                                 Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.         Three sterile supply storage areas and one
                                                            soiled utility area were unsecured.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.




VA OIG Office of Healthcare Inspections                                                                  5
                               CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


 NC     Areas Reviewed for SPS/RME (continued)                              Findings
       Employees received required RME training
       and competency assessment.
       Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by local policy.
              Areas Reviewed for Dental Clinic
 NA    If lasers were used in the dental clinic, staff
       who performed or assisted with laser
       procedures received medical laser safety
       training, and laser safety requirements were
       met.
       General infection control practice
       requirements in the dental clinic were met.
       Dental clinic infection control process
       requirements, including use of personal
       protective equipment, disinfection practices,
       RME reprocessing, compliance with single
       use items, and maintenance of water lines,
       were met.
       Safety requirements in the dental clinic were
       met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendation

1. We recommended that processes be strengthened to ensure that sterile supply storage and
soiled utility areas are secured at all times.




VA OIG Office of Healthcare Inspections                                                                 6
                               CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of the CS Coordinator and 4 CS inspectors and inspection documentation from
10 CS areas, the outpatient pharmacy, and the emergency drug cache. The table below shows
the areas reviewed for this topic. The areas marked as NC needed improvement. Any items
that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
 X     Instructions for inspecting automated             Automated dispensing machine inspection
       dispensing machines were documented,               instructions had not been developed.
       included all required elements, and were
       followed.
 X     Monthly CS inspection findings summaries         Quarterly trend reports for past 4 quarters
       and quarterly trend reports were provided to     reviewed:
       the facility Director.                            Reports did not include problematic trends or
                                                           potential areas for improvement.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
 X     CS inspectors were appointed in writing,         Appointments, certifications, and training
       completed required certification and training,   records reviewed:
       and were free from conflicts of interest.         CS inspectors did not receive annual CS
                                                           updates and/or refresher training.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
 X     Pharmacy CS inspections were conducted in        Documentation of pharmacy CS inspections
       accordance with VHA requirements and             during the past 6 months reviewed:
       included all required elements.                   Verification of the number of prescription pads
                                                          was not consistently included.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

2. We recommended that the facility develop instructions for inspections of automated
dispensing machines.



VA OIG Office of Healthcare Inspections                                                                   7
                               CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


3. We recommended that processes be strengthened to ensure that quarterly trend reports
include problematic trends and potential areas for improvement.

4. We recommended that processes be strengthened to ensure that CS inspectors receive
annual CS updates and/or refresher training.

5. We recommended that processes be strengthened to ensure that CS inspectors
consistently verify the number of prescription pads and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 8
                               CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


Suicide Prevention Safety Plans
The purpose of this review was to determine whether clinicians had developed safety plans that
provided strategies to mitigate or avert suicidal crises for patients assessed to be at high risk for
suicide.4

We reviewed relevant documents and conversed with key employees. We also reviewed the
EHRs of 10 patients assessed to be at high risk for suicide during the period
December 2012–May 2013. The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

 NC                   Areas Reviewed                                        Findings
       Patients had documented safety plans.
       Patients and/or their families participated in
       plan development .
       Safety plans contained all required elements.
       There was documented evidence that
       patients and/or their families received a copy
       of the plan.
       Patient record flags were placed before
       safety plans were developed.
       The facility complied with an additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 9
                               CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


Moderate Sedation
The purpose of this review was to determine whether the facility had developed safe processes
for the provision of moderate sedation that complied with applicable requirements.5

We reviewed relevant documents, the EHRs of 10 patients who underwent moderate sedation,
and 5 employee training/competency records, and we conversed with key employees. The
table below shows the areas reviewed for this topic. Any items that did not apply to this facility
are marked NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                       Findings
       Staff completed competency-based
       education/training prior to assisting with or
       providing moderate sedation.
       Pre-sedation documentation was complete.
       Informed consent was completed
       appropriately and performed prior to
       administration of sedation.
       Timeouts were appropriately conducted.
       Monitoring during and after the procedure was
       appropriate.
       Moderate sedation patients were appropriately
       discharged.
       The use of reversal agents in moderate
       sedation was monitored.
       If there were unexpected events/complications
       from moderate sedation procedures, the
       numbers were reported to an
       organization-wide venue.
       If there were complications from moderate
       sedation, the data was analyzed and
       benchmarked, and actions taken to address
       identified problems were implemented and
       evaluated.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                10
                               CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


Management of Workplace Violence
The purpose of this review was to determine the extent to which VHA facilities managed
disruptive and violent incidents.6

We reviewed relevant documents and Reports of Contact from five disruptive patient incidents
that occurred in FY 2013, and we conversed with key employees. The table below shows the
areas reviewed for this topic. Any items that did not apply to this facility are marked NA. The
facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                       Findings
       The facility had policies on preventing and
       managing violent behavior.
       The facility had an employee training plan that
       addressed preventing and managing violent
       behavior.
       Selected incidents were managed
       appropriately according to the facility’s
       policies.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                11
                               CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


Long-Term Home Oxygen Therapy
The purpose of this review was to determine whether the facility complied with requirements for
long-term home oxygen therapy in its mandated Home Respiratory Care Program.7

We reviewed relevant documents and 35 EHRs of patients enrolled in the home oxygen
program (including 13 patients deemed to be high risk), and we conversed with key employees.
The table below shows the areas reviewed for this topic. Any items that did not apply to this
facility are marked NA.        The facility generally met requirements.       We made no
recommendations.

 NC                      Areas Reviewed                                     Findings
       There was a local policy to reduce the fire
       hazards of smoking associated with oxygen
       treatment.
       The Chief of Staff reviewed Home Respiratory
       Care Program activities at least quarterly.
       The facility had established a home
       respiratory care team.
       Contracts for oxygen delivery contained all
       required elements and were monitored
       quarterly.
       Home oxygen program patients had active
       orders/prescriptions for home oxygen and
       were re-evaluated for home oxygen therapy
       annually after the first year.
       Patients identified as high risk received
       hazards education at least every 6 months
       after initial delivery.
       NC high-risk patients were identified and
       referred to a multidisciplinary clinical
       committee for review.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                12
                           CAP Review of the VA Chalmers P. Wylie Ambulatory Care Center, Columbus, OH
                                                                                            Appendix A


     Facility Profile (Columbus/757) FY 2013 through July 2013a
Type of Organization                                                           Secondary
Complexity Level                                                               3-Low complexity
Affiliated/Non-Affiliated                                                      Affiliated
Total Medical Care Budget in Millions                                          $166.9
Number (through August 2013) of:
    Unique Patients                                                           37,058
    Outpatient Visits                                                         368,558
    Unique Employeesb                                                         802
Type and Number of Operating Beds:
    Hospital                                                                  NA
    CLC                                                                       NA
    Mental Health                                                             NA
Average Daily Census:
    Hospital                                                                  NA
    CLC                                                                       NA
    Mental Health                                                             NA
Number of Community Based Outpatient Clinics                                   4
Location(s)/Station Number(s)                                                  Zanesville/757GA
                                                                               Grove City/757GB
                                                                               Marion/757GC
                                                                               Newark/757GD
VISN Number                                                                    10




a
    All data is for FY 2013 through July 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                            13
                      CAP Review of the VA Chalmers P. Wylie Ambulatory Care Center, Columbus, OH
                                                                                       Appendix B


                        VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient scores for quarters 3–4 of FY 2012 and quarters 1–2 of FY 2013
and overall outpatient satisfaction scores for FY 2012.

Table 1

                Inpatient Scores                            Outpatient Scores
               FY 2012     FY 2013                              FY 2012
              Inpatient      Inpatient       Outpatient   Outpatient   Outpatient    Outpatient
              Score          Score           Score        Score        Score         Score
              Quarters 3–4   Quarters 1–2    Quarter 1    Quarter 2    Quarter 3     Quarter 4
Facility        *              *              67.9        64.5         55.0          54.2
VISN            63.4           66.3           59.9        59.6         59.2          58.3
VHA             65.0           65.5           55.0        54.7         54.3          55.0
 * The facility does not have inpatient beds.




VA OIG Office of Healthcare Inspections                                                           14
                      CAP Review of the VA Chalmers P. Wylie Ambulatory Care Center, Columbus, OH
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs 	                                Memorandum


       Date: 	         9/23/2013

       From: 	         Director, VA Healthcare System of Ohio (10N10)

       Subject: 	      CAP Review of the Chalmers P. Wylie VA Ambulatory
                       Care Center, Columbus, OH

       To: 	           Director, Baltimore Office of Healthcare Inspections (54BA)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       1. Thank you for this review and the opportunity to continue to improve
          the quality and services provided to Veterans.

       2. I have reviewed the recommendations and corresponding actions and
          concur with the facility’s responses.

       3. If you have any questions or require additional information, please
          contact Jane Johnson, VISN 10 Deputy Quality Management Officer at
          (513) 247-4631.




           Jack G. Hetrick, FACHE
           Director, VA Healthcare System of Ohio (10N10)




VA OIG Office of Healthcare Inspections                                                       15
                      CAP Review of the VA Chalmers P. Wylie Ambulatory Care Center, Columbus, OH
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                                Memorandum


       Date: 	         9/23/2013

       From: 	         Director, Chalmers P. Wylie VA Ambulatory Care Center,
                       Columbus, OH (757/00)

       Subject: 	      CAP Review of the Chalmers P. Wylie VA Ambulatory
                       Care Center, Columbus, OH

       To: 	           Director, VA Healthcare System of Ohio (10N10)

       1. Thank 	you for the opportunity to review the report on the
          Chalmers P. Wylie Ambulatory Care Center, Columbus, Ohio.

       2. I have reviewed the document and concur with the recommendations.
          Corrective actions have been established with planned completion
          dates, as detailed in the attached report.




           Keith Sullivan, FACHE
           Director




VA OIG Office of Healthcare Inspections                                                       16
                      CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
sterile supply storage and soiled utility areas are secured at all times.

Concur

Target date for completion: September 30, 2013

Facility response: The facility inspected the sterile supply areas and carts to ensure
locking mechanism are in good working order and repaired locks as needed. Random
checks are performed to ensure sterile supply carts/rooms and dirty supply rooms are
locked. Reinforcement with staff has been completed regarding maintaining the
security of both sterile supply carts and soiled utility areas at all times.

Recommendation 2. We recommended that the facility develop instructions for
inspections of automated dispensing machines.

Concur

Target date for completion: October 1, 2013

Facility response: The facility’s controlled substance inspection policy was revised to
include specific instructions for conducting an inspection of controlled substance
medications in the Omnicell (the automated dispensing machines).             Controlled
Substance Inspectors (CSI) were provided training with the revised instructions and
policy during the annual meeting held September 18, 2013. The revised policy is
currently being routed for approval, signatures, and posting.

Recommendation 3. We recommended that processes be strengthened to ensure that
quarterly trend reports include problematic trends and potential areas for improvement.

Concur

Target date for completion: April 15, 2014

Facility response: Revision to the quarterly trend report was implemented with the
3rd quarter FY 2013 report and included a summary of the monthly inspection results
along with the reporting of problematic trends and potential areas of improvement. This
revised report format and content was presented and discussed during the




VA OIG Office of Healthcare Inspections                                                       17
                      CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH


September 18, 2013 CSI annual meeting. The quarterly trend reports will be submitted
to and reviewed by the Compliance Committee for the next quarter to ensure inclusion
of problematic trends and potential areas for improvement.

Recommendation 4. We recommended that processes be strengthened to ensure that
CS inspectors receive annual CS updates and/or refresher training.

Concur

Target date for completion: September 18, 2013

Facility response: Annual CSI training was held on September 18, 2013 and attended
by all CSIs. Agenda items included training on the Omnicell, a review and discussions
of the revised inspection process and policy and quarterly trend report content. Training
meeting minutes were distributed to all CSIs and attendance registered in the facility’s
Training Management System (TMS) for record keeping. Annual training meetings are
being scheduled. Ad hoc CS meetings will be held if needed.

Recommendation 5. We recommended that processes be strengthened to ensure that
CS inspectors consistently verify the number of prescription pads and that compliance
be monitored.

Concur

Target date for completion: August 30, 2013

Facility response: The controlled substance inspection policy was revised to specify
monthly verification of prescription pads and clarified the CSIs’ inspection process
requiring a monthly count of prescription pads and not the quarterly count being
performed. This change was implemented with the August 27, 2013 inspection and
reinforced at the annual CSI training session. The results of monthly prescription pad
counts and dates of inspections will be reported monthly at the Compliance Committee
meetings.




VA OIG Office of Healthcare Inspections                                                       18
                      CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Donald Braman, RN, BSN, Team Leader
Contributors            Laura Dulcie, BSEE
                        Terri Julian, PhD
                        Jeff Maslar, Special Agent
                        Gavin McClaren, Special Agent
                        Melanie Oppat, MEd, LDN
                        Sonia Whig, MS, LDN
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Jennifer Christensen, DPM
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH, MBA
                        Cynthia Gallegos
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       19
                      CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Healthcare System of Ohio (10N10)
Director, Chalmers P. Wylie VA Ambulatory Care Center (757/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Sherrod Brown, Rob Portman
U.S. House of Representatives: Joyce Beatty, Jim Jordan, Steve Stivers, Pat Tiberi


This report is available at www.va.gov/oig/.




VA OIG Office of Healthcare Inspections                                                       20
                            CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH
                                                                                            Appendix G

                                               Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 Deputy Under Secretary for Health for Operations and Management, “Use of Enzymatic and Gels for the
   Processing of Reusable Medical, Surgical, and Dental Instruments,” memorandum, July 23, 2010.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Materiel Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  The references used for this topic were:
	 Deputy Under Secretary for Health for Operations and Management, “Patients at High-Risk for Suicide,”
   memorandum, April 24, 2008.
	 Barbara Stanley, Ph.D., and Gregory K. Brown, Ph.D., Safety Plan Treatment Manual to Reduce Suicide Risk:
   Veteran Version, August 20, 2008.
5
  References used for this topic included:
	 VHA Directive 2006-023, Moderate Sedation by Non-Anesthesia Providers, May 1, 2006.
	 VHA Directive 1039, Ensuring Correct Surgery and Invasive Procedures, July 26, 2013.
	 VHA Handbook 1004.01, Informed Consent for Clinical Treatments and Procedures, August 14, 2009.




VA OIG Office of Healthcare Inspections                                                                       21
                            CAP Review of the Chalmers P. Wylie VA Ambulatory Care Center, Columbus, OH



6
    The reference used for this topic was:
	 VHA Directive 2012-026, Sexual Assaults and Other Defined Public Safety Incidents in Veterans Health
   Administration (VHA) Facilities, September 27, 2012. 
7
  References used for this topic were:
	 VHA Directive 2006-021, Reducing the Fire Hazard of Smoking When Oxygen Treatment is Expected,
   May 1, 2006.
 VHA Handbook 1173.13, Home Respiratory Care Program, November 1, 2000.




VA OIG Office of Healthcare Inspections                                                                   22
